                            AGENCY FOR INTERNATIONAL DEVELOPMENT
                                   OFFICE OF THE REGIONAL INSPECTOR GENERAL
                                                                                                                                     Unit 31
                                           SAN SALVADOR, EL SALVADOR                                                             APO AA 34023
                                                                                                                           Telephone    298-l 666
                                                                                                                           FAX: (503) 228-5459




                                                                                                                  November 30, 1998

     MEMORANDUM

     FOR:                                     Director, Phyllis

     FROM:                RIG/A/San Salvador, Timothy E. Cox
-
     SUBJECT:	            Audit of the Quality of Results Reported in             Results Review and
                          Resource Request (R4) Report Prepared in 1997 (Report No. 1-521-99-004-P)

     This memorandum is our report on the subject audit. In finalizing the report, we considered your
              on the draft report. Your comments on the draft report are included in Appendix II.

     This report contains one recommendation for your action. Based on the information provided
     by the Mission, a management decision has been reached on this recommendation. A
     determination of final action for this recommendation will be made by the Office of Management
--   Planning and Innovation                    when planned corrective actions are completed.

     I appreciate the cooperation extended to my staff during the audit.


     Background
     Passage of the Government Performance and Results Act of 1993 (Results Act) was intended,
     among other things, to improve the effectiveness of federal programs and public accountability
     by promoting a new focus on results. The General Accounting Office (GAO) noted that key
     steps in building a successful results-oriented organization include collecting and using
     performance information in the decision making process; Congress also recognized, in the
     Results Act, that agency managers need performance information to facilitate decision making
     leading to programs that meet intended goals. GAO also noted that successful implementation
     of the Results Act is dependent on good information for decision making purposes. In this
     regard, we adopted five characteristics of what we believe is good management information:
     objectively verifiable, supported, accurate, complete, and validated.

     Since            was established in 1961, it has initiated numerous systems to report on program
     results. However, none of these systems have been fully successful. Over the past several years,
     the Office of Inspector General (OIG) has intermittently reported on weaknesses in the
     ability to measure and report reliable program performance information. Examples of these audit
     reports include:
--             A June 1995 audit which reported that            needed better direction and control
               procedures to ensure that (1) objectively verifiable and measurable indicators were


               The three audit reports referred to in this paragraph are Audit Report No. l-000-95-006 (dated June 30,   Audit Report No.
     0-000-98-001-F (dated March 2,         and Audit Report No. 9-000-98-001 -P (dated March 26, 1998).
             established to measure program performance and (2) reliable and useful performance data
             were reported and documented.
             A March 1998 audit of the           fiscal year 1996 financial statements which showed
             that 29 of the 38 (76 percent) quantified results reported in the program performance
             section of the overview section were either incorrect, unsupported, or vaguely set forth.
             Another audit report issued in March 1998 which disclosed that 10 of 11 overseas
-            missions reviewed had not developed, or had not finalized, a formal and ongoing system
             of data collection and verification to report good performance data.
      In light of the problems reported, the OIG was concerned that these conditions may be pervasive
      throughout           and decided to perform this             audit to (1) establish a baseline for
      future OIG audit work, (2) identify problems with current data reporting, and (3) develop
      recommendations for improving data reporting. This audit was not intended to assess the quality
 -    of performance indicators, but rather to determine if the performance results reported in the
      Results Review and Resource Requests             by operating units were objectively verifiable,
      supported, accurate, complete, and validated. This audit of                   is one of 18 audits
      being done on a                 basis.
                     R4 dated June 1997 was approved by USAID/Washington in July 1997, and
      included 41 indicators for which performance results (or baseline data) were reported for fiscal
      year 1996. Of the 41 performance indicators for which a result was reported for 1996, 25
      performance indicators were randomly selected for audit. As of September 30, 1997,
                  had obligated and expended in support of its active programs a total of $339 million
      and $265 million, respectively.


      Audit Objective
      The Regional Inspector General/San Salvador, as part of an                  audit, performed the
      audit to answer the following question:
      Did             report results data in its Results Review and Resource Request prepared
      in 1997 which were objectively verifiable, supported, accurate, complete, and validated?

      Appendix I describes in detail the audit’s scope and methodology.
- -


      Audit Findings
      Did USAID/Haiti Report Results Data in its Results Review and Resource
      Request Prepared in 1997 Which Were Objectively Verifiable, Supported,
      Accurate, Complete, and Validated?
                   did not report results which were objectively verifiable, supported, accurate,
      complete, and validated. In order to fully meet these standards, improvements were needed in


                                                      2

      23 of 25 results reported in the R4 that were part of our random sample of performance
      indicators.

      Federal laws and regulations require federal agencies to develop and implement internal
      management control systems that: (1) compare actual program results against those anticipated;
      (2) provide for complete, reliable, and consistent information; and (3) ensure that performance
      information is clearly documented and that the documentation is readily available for
      examination. For example, Office of Management and Budget (OMB) Bulletin                   requires
      agencies to have internal control systems to provide reasonable assurance that support for reported
      performance results is properly recorded and accounted for to permit preparation of reliable and
      complete performance information. (See Appendix IV for a further discussion of relevant laws
      and regulations, as well as related         policies and procedures.)

      For the purpose of this audit, the following definitions are used:

             Objectively                         are to be objective and the results are to be objectively
             verifiable. This means an indicator has no ambiguity about what is being measured; that
             is, there is general agreement over interpretation of the results. Indicators are also to be
             both unidimensional and operationally precise. To be unidimensional means that it
             measures only one phenomenon at a time, and operational precision means no ambiguity
             over what kind of data would be collected for an indicator.

             Supported-This means that adequate documentation supports the reported result. The
             support should be relevant, competent, and sufficient (as noted in the GAO’s Government
             Auditing Standards). For example, a memo of a telephone conversation, or “best guesses’*
             would not be considered adequate documentation.

             Accurate-This includes (1) being within plus or minus one percent (1.0 percent) of the
             actual documented result and (2) being consistent with what was to be measured under
             the indicator (e.g., if the indicator was the number of children vaccinated under 5 years
             of age, then the result would not be consistent if the supporting documents show that the
             result was for children under 3 years of age). A result would also not be considered
             accurate if supporting documents showed that it was achieved prior to January 1, 1996.
             Since we only reviewed results in the R4 “performance data tables” for “1996,” a result
             would not be considered accurate if supporting documents showed that the result was
             achieved in 1992.

             Complete-This means that the result (1) included all data which was anticipated to be
             measured for the indicator and (2) was for a full year. For example, if 20 regions were
- -          to be measured but only 18 regions were measured, the result would not be complete.
             Also, if the results were only for a partial year (e.g., a six-month period), then the result
             would not be complete.

             Validated-This refers to the source of the data and the reliability of that source. For the
             purposes of this audit, we consider a source to be reliable if it is independent, such as the
             World Bank, United Nations (U.N.), independent evaluators, or an independent
             Demographic and Health Survey. If the data came from a contractor involved with the
             program or from the host country government, the data would only be considered from
             a reliable source if        or an independent entity had performed an assessment of the
             data and/or system for generating the data and found the data or system to be reliable.
             (Note: Under the Results Act,            must validate its outside sources, including the


                                                       3

               World Bank, U.N., etc., but for the purposes of this audit, we are not reviewing
               determination of validity of these independent sources.             validation process for
               external information will be assessed at a later time in another audit.)
    As shown in Appendix III, our audit found problems with 23 of the 25 performance results
    reported in the R4 for 1996 (which was prepared in 1997). A breakdown and examples of these
    problems are as
               Results for three indicators were not objectively verifiable. For example, one agricultural
               performance indicator was agricultural income, and the 1996 reported result was a
               percent increase. The indicator is described as “income” but it is not further defined as
               to whether this means gross income or net income (revenue minus expenses). The
               contractor’s documentation reported the figures to the Mission as “revenue.” The Mission,
               nevertheless, chose to report these same figures as income in its R4. Revenue and (net)
-              income can have radically different results. However, income can also have several
               meanings including revenue. This was just one aspect of the indicator that was
               ambiguous. The statistician who compiled the data substituted agricultural production
               increases as a proxy for income increases, but this substitution was not disclosed in the
               R4. In addition, the Mission already reported an agricultural production indicator,
               increase in hillside crop yields. This indicator was based on the same target farmer
               population, used the same farmer survey, reported the same percentage and, therefore,
               duplicated the Mission’s reporting. As consequence, we concluded that this indicator
               was open to interpretation and lacked definitional precision.
               One democracy performance indicator was enabling legislation for local government
              passed and implemented.       The 1996 reported result was          for the two phases.
               However, the indicator was not operationally precise because the implementation aspect
               of the performance indicator had not been defined. For example, the Mission had neither
               determined which components of the law(s) were significant to the law’s implementation
               nor analyzed the components of the law(s) to determine whether implementation had
               occurred.
               Results for eight indicators were not supported. For example, two health performance
               indicators were measles immunization rate among children of 12-23 months and women
               using Oral Rehydration Therapy for their children. The 1996 reported results were 59
               percent and 56.6 percent, respectively. However, the Mission had no documentation on
               file showing how the 1996 results were compiled, and Mission staff could not recollect
               how it was compiled. The Mission did provide a later research survey which could show
               that the reported 1996 results were accurate or close, but this survey report was not the
               actual basis for compiling the 1996 reported results in the R4.
               One education performance indicator was number of teachers trained, and the 1996
               reported result was 800. However, later documented results were 1,034 - a difference


                To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not supported and not accurate),
    we classified indicator results as having only one problem according to the following hierarchy: not objectively verifiable, not supported, not
    accurate, and not complete. We did, however, classify results as not validated (if applicable) in addition to another problem because we believe
    that the requirement for operating units to assess the quality of data sources was a distinct function and potentially related to each of the type
    of problems included in the hierarchy. We did not assess whether a result was validated if the result was not objectively verifiable.

                                                                             4
    of 234. This documented result represented the total diagnostic tests given, which
    included both teachers and school directors. These diagnostic tests were a precursor to
    the actual training, and the number of school directors included within the total figure was
    not distinguished. In addition, not all teachers given the diagnostic tests actually followed
    through with the training, but the dropout figures were also not documented. Therefore,
    the actual number of tests administered to teachers might (and might not) be close to the
    reported result of teachers trained; nevertheless, actual results were not supported and
    were unknown.
    Results for seven indicators were not accurate. One environmental performance indicator
    was agroforestry trees planted, with a reported 1996 result of 6 million. However, the
    supporting documentation showed that 6.6 million trees had been planted, and Mission
    officials could not explain the discrepancy.
    One nutrition performance indicator was percent of children under 3 years old with acute
    and chronic malnutrition in program areas. The 1996 reported result was, actually, three
    results for the three geographic areas managed by the implementing partners. CARE’s
    reported result was 24.5 percent; Catholic Relief Services’ (CRS) reported result was 13.0
    percent; and Adventist Development and Relief Agency’s                 reported result was
    26.6 percent. However, documented results differed for two partners. CARE’s
    documented result was 19.5 percent, and CRS’ documented result was 23.0 percent. In
    addition, although the indicator was defined to measure the result for children under three
    years of age, each of the implementing partners used different age cohorts for reporting.
             figures were for children under five years of age, CRS’ figures were for children
    under four years of age, and CARE’s figures were for children between six months and
-   three years of age.
    Results for two indicators were not complete. One agricultural performance indicator was
    increase in hillside crop yields, and the 1996 reported result was a 20 percent increase.
    However, the reported result is based on a survey of 2,280 farmers from one of the four
    participating local organizations in the program that encompassed, in total, about 104,000
    farmers. Data was not available from the other three participating organizations. Mission
    officials considered the result from the one organization to be representative of all four
    organizations; however, there was no analytical or documentary basis for this assertion.
    Results for 19 indicators were not validated. One education performance indicator was
    students participating in pilot distance education project. The 1996 reported result was
    2,100 students. However, this original R4 1996 result was determined based on
    undocumented phone calls and undocumented meetings. Supporting documentation
    obtained later showed that the actual result was 2,218 - a difference of about 6 percent.
    Furthermore, Mission officials acknowledged that they had not assessed the quality of data
    being provided by the partner for the previous year’s R4, although these officials also
    pointed out that they intended to both document and assess the data provided for the
    current year’s R4.
    Two agricultural performance indicators were farmers using sustainable practices and
    hectares of hillside farmland assisted by      The 1996 reported results were 103,240
    farmers and 110,000 hectares respectively. The data for these two indicators not only
    come       the same source - four participating local organizations - but also are
    computationally linked. The number of hectares was obtained by multiplying the number
    of farmers by a factor of 1.1. However, the Mission could not support the analytical

                                                5
           basis for using this factor and, furthermore, acknowledged that they had not assessed the
           quality of data being provided by the four participating local organizations.
In some cases, a reported result had a problem because of more than one reason. However, to
avoid duplication, we classified a result as having only one problem (except for validation). For
example, one democracy performance indicator was number of local government units having
completed training modules. The 1996 reported result was 22. However, the reported result only
reflected local              and not other types of legally autonomous governmental units (as
defined by the indicator’s unit of measure). The               program did encompass other local
governmental units and was much larger in scope than what was reported. The Mission only
provided supporting documentation for the local communes, and this documentation showed a
result of 24 communes - two more than the 22 communes actually reported. Although we
classified the result as “not supported”, it was also “not accurate” and “not complete”.
The above problems existed because               did not always follow or was not successful
in following prescribed        policies and procedures (Automated Directives System [ADS]
200 Series) for measuring and reporting on program performance. For example,
           Did not ensure three indicators were objective as prescribed by ADS E203.5.5.
           Did not always (1) assess data quality as part of the process of establishing performance
           indicators and choosing data collection sources and methods; (2) critically assess the
           performance data at regular intervals to ensure the data are of reasonable quality and
           accurately reflect performance; and (3) reassess data quality as is necessary but at intervals
           of no greater than three years as prescribed by ADS E203.5.5.
           Did not, in eight cases, maintain documentation to support reported results as prescribed
           by ADS
             officials cited several additional explanations for the problems. The officials said
they needed more training for managing for results. They noted that the process for preparing
the 1997 R4 was not characterized by a high degree of discipline. The officials also said they had
not performed critical assessments to determine the reliability of performance data because they
generally were not aware of the requirement to perform such assessments. Officials stated that
more detailed attention will be given to collecting and verifying data in the



            The guidance requires the operating unit to establish a performance monitoring system to collect and analyze data which will enable
it to assess its progress in achieving results. This system should: (1) provide a detailed definition of the performance indicators to be tracked;
(2) specify the data source and its method and schedule of collection; and (3) assign responsibility for data collection to an office team or
individual.

             It should also be noted that                  bureaus are responsible for providing support to operating units to develop effective
               monitoring systems to report on program results and for reviewing the R4 process. For example,              policies and procedures
(ADS Sections 201 11 a and 203.3) stipulate that the Bureau for icy and Program Coordination should (1) ensure the adequacy of operating
units’ strategic plans for measuring performance and documenting impact, and (2) provide technical leadership in developing           and operating
unit performance monitoring and evaluation systems. These policies and procedures also stipulate that each regional bureau (e.g., Bureau for
Latin America and the Caribbean) should (1) provide oversight and support to its operating units in developing their strategic plans for measuring
program performance; (2) support its operating units in achieving approved objectives, and review and report annually those units’ performance
in achieving their objectives; and (3) manage the R4 submissions for operating units under its authority. The issue of                      support
and oversight will be addressed in another audit report which will be issued on completion of this USAID-wide audit.

                                                                        6
        Without reliable performance data, decision makers have little assurance whether an operating
        unit met, exceeded or fell short in achieving its program objectives and related targets. In our
        opinion, the problems with performance indicators and results reporting cited in this report impair
                       and          management’s ability to (1) measure progress in achieving program
        objectives, and (2) use performance information in budget allocation decisions. The problems
        also impair          ability to comply with laws and regulations.
               Recommendation No. 1: We recommend that

               11
                �      ensure its performance indicators in the R4 prepared in 1999 are objective
                       and clearly defined regarding what specific results are to be measured; and

               12      ensure that the performance data identified in its R4 prepared in 1999 are
                       supported, accurate, complete, and validated; or fully disclose in the R4 any
                       data limitations and their implications for assessing the measurement and
    -                  achievement of performance targets for each performance indicator, and a
                       time frame for resolving the problems.




        Management Comments and Our Evaluation
                      agreed with the contents of the draft report and provided a detailed explanation of
        its comprehensive efforts to implement the report’s recommendation.                     comments
        are included in their entirety in Appendix II.) For example,                    stated that it has
        addressed the report’s recommendation by more clearly defining almost all of its indicators,
        replacing or deleting others, and identifying studies to collect better baseline data. This was
        reflected in the R4 prepared in 1998 and recently submitted to                       The Mission
        is in the process of incorporating data source validation as part of all project monitoring and
        evaluation. The Mission also plans to strengthen the analytical capability of its Monitoring and
        Evaluation Unit to enhance its performance monitoring functions. In addition, by March 1999,
        the Mission is committed to have a revised Performance Monitoring Plan in place so that the R4
        prepared in 1999 will ensure that performance indicators are objective, clearly defined regarding
        specific results to be measured, supported, accurate, complete, and validated. Based on
                        response, a management decision has been reached for both parts 1 and 1.2 of
        the recommendation.




-
                                                                                    APPENDIX I
                                                                                     Page 1 of 2



                                   SCOPE AND

                                  METHODOLOGY




Scope
We audited                   internal management controls for ensuring that it reported objectively
verifiable, supported, accurate, complete and validated performance results data in its Results
Review and Resource Request (R4) report (See pages 3 and 4 of this report for definitions). We
audited only the results (including baseline data) reported for 1996 in the R4 prepared in 1997.
The audit was performed in accordance with generally accepted government auditing standards
and was conducted at                  from April 27, 1998 through May 21, 1998.

We limited our work on the quality of data to the results for only (1) the performance indicators
identified in the “performance data tables” in the R4 prepared in 1997, and (2) the actual results
for which such data was shown for 1996. Therefore, if no actual results for an indicator were
shown for 1996, we did not assess the validity and reliability of the results for that indicator. We
did not review results reported in the narrative portion of the R4.

We did not attempt to determine if the baseline data for a prior year and the results reported for
1996 were consistent and based on comparable data.


Methodology
This audit is part of a           audit. The Office of Inspector General’s Performance Audits
Division in Washington, D.C. is the lead office. Operating units were selected using a random
sample based on assistance from statisticians from the Department of Defense’s Office of
Inspector General. Of the 41 performance indicators for which a result was reported for 1996,
25 performance indicators were randomly selected based on assistance from the Department of
Defense’s Office of Inspector General.

To accomplish the audit objective, we interviewed officials from            We also reviewed
the documents which supported the reported results. Where problems were found, we verified
to the extent practical, the causes of the problems. This included additional interviews with
Mission personnel, and reviews of additional documentation from the Mission and its contractors
and grantees.
                                                                                       APPENDIX I
                                                                                        Page 2 of 2

       avoid duplicating the problems related to the reported results (e.g. a reported result could be
    both not supported and not accurate), we classified indicator results as having only one problem
    according to the following hierarchy: not objectively verifiable, not supported, not accurate, and
    not complete. We did, however, classify results as not validated (if applicable) in addition to
    another problem because we believe that the requirement for operating units to assess the quality
    of data sources was a distinct function and potentially related to each of the types of problems
    included in the hierarchy. We did not assess whether a result was validated if the result was not
    objectively verifiable.

    If the results reported for the indicators were found to be objectively verifiable, supported,
-   accurate, complete and validated: (a) 95 percent or more of the time, (b) 80 to 94 percent of the
    time, or (c) less than 80 percent of the time, we would provide a positive, qualified, or negative
    answer to the audit question, respectively.
                                                                  APPENDIX II
                                                                   Page 1 of 12


                            .          INTERNATIONAL




     FROM:	                     Director, Phyllis

     DATE:	      October 30, 1998
     SUBJECT:	             Management's Response to the RIG Audit of the

                 1996 R4 Performance Indicators

     This memorandum is our response to your draft report on the subject

     audit and contains our request that you close out both audit

     recommendations No. 1.1 and No. 1.2. It also contains our written

     comments on actions planned or already taken to implement the

     recommendations.

     General Comment:

                recognized that many of its performance indicators
     needed to be improved. However, it was agreed with       during

                  FY 1998 R4 meetings that the indicators would be

     revised as part of the development of        Strategic Plan for

     Haiti FY 1999 FY 2004.

     This response represents               best effort to address the

     audit issues. Extensive discussions were had between          staff

     and auditors prior to their departure; however, these were based on
     a prior working draft. The audit report herein was substantially

     revised from that working draft and indicator shortcomings were

     revised without the benefit of discussion with               staff.

     Furthermore, there was limited opportunity for        staff to get

     necessary clarification from auditors on these revisions and

     recateogrizations of indicator shortcomings, as reflected in this

     final draft report.

     With special consideration of the preliminary report of this audit

     findings,              undertook a critical look at indicators

     flowing out of the        Strategic Plan for Haiti FY 1999 2004
     and a number of revisions have already been made to improve the
     existing indicators consistent with the recommendations of the
--   auditors. Many of the indicators have been more clearly defined
     and some have been replaced to better reflect programmatic
     priorities. Moreover, efforts to validate data sources are being
     regularized, and data source validation will become a part of all
     project monitoring and evaluations.             plans to strength­
     en its capacity to measure accurately and report on its performance
     indicators.    To assist in this effort, we will strengthen the
     analytical capability of the             Monitoring and Evaluation
     Unit (MEU) to carry out better performance monitoring functions.
     We have also identified a number of studies to collect better
     baseline data. One example is the study we intend to undertake to
     measure "increased income" more accurately.

                                                                                    APPENDIX II
                                                                                     Page 2 of 12




   reviewing the indicators and correcting for appropriate time

periods for measurement and obtaining additional- copies of

supporting documentation, USAID/Haiti found 16 (see below) of the

25 indicators reviewed either met or exceeded their targets. The

preliminary report of audit findings indicates, however, that among

the universe of 25 indicators, 19 of these were not validated, 8

not supported, 2 not complete, 7 not accurate and 3 not objectively

verifiable. USAID/Haiti will be more diligent in ensuring that
best possible information and indicators are produced to better
document this highly satisfactory program performance.

 Not          Not       Not   Complete   Not Supported   Not Validated
 verifiable         I                                                    I




As part of the strategy and current R4 review,                   is
committed to have a revised Performance Monitoring Plan in place by
March 1999.    This Plan will be consistent with Agency guidelines
on performance and assistance impact measurement, and the        In
so doing, USAID/Haiti will ensure the performance indicators in the
   prepared in 1999 are objective and clearly defined regarding
what specific results are to be measured as well as supported,
accurate, complete and validated.                      Performance
Monitoring Plan will fully disclose any data limitations and their
implications for assessing the measurement and achievement of
performance targets for each performance indicator and a time frame
for resolving the problems. As noted in the                    will
continue to balance the need for accurate and complete reporting

against the cost of acquiring the data.

Response to
-                                                                            closedbased

on: (a) the             actions already by USAID/Haiti.

      In response to the preliminary report of the audit findings,

USAID/Haiti has significantly refined its indicators for the R4

prepared in 1998 and recently submitted to USAID/W. We redefined

practically all of the indicators to ensure greater accuracy and,

where necessary, replaced or deleted others. They will continue to

be reflected in              R4 prepared in FY 1999 and subsequent

years.

Response to Recommendation No.1.2.

     USAID/Haiti recommends                   1.2 be closed based
on remedial actions already taken and development of a
sive Performance Monitoring Plan by March 1999.


                                              2

                                                                  APPENDIX II
                                                                   Page 3 of 12



                    undertook a critical self-assessment of its

    performance data for the R4 prepared in 1998 (1997 Results). Every

    effort was made to ensure that performance reports were
    documented and supported, that the data was reliable, and that the

    indicators were more precisely                 These changes are

    reflected in the R4 prepared in 1998 and submitted to USAID/W.

    They will continue to be reflected in               R4 prepared in

       1999 and subsequent years.                         Performance

    Monitoring Plan, prepared in    1999, will fully disclose any data

    limitations and their implications for assessing the measurement

    and achievement of performance targets for each performance

    indicator, and a time frame for resolving the problems.

    Accuracy levels: One   Percent Guideline
    In general, USAID/Haiti believes that the auditors guideline of
    accuracy within one percent is overly rigorous, particularly when
    one recognizes the difficulties in obtaining reliable data and
    measurements in most developing country contexts such as
    For example, results for one indicator reported          million
    Agroforestry trees planted". However, this indicator was not
-   considered accurate because supporting documentation showed that
    6.6 million trees had been planted (i.e., exceeded indicator by

                                           x
    Since the audit, USAID/Haiti has taken the following actions to

    remedy shortcomings and better define its performance indicators:

    Bills and resolutions passed by Parliament
         Remedial action taken: This indicator was classified as "Not
         Accurate'* because the reported result was 5 and the documented
         result was 15.               considered only        pieces of
         legislation" to be relevant -- of which there were 5 -­
         without documenting what would classify the legislation as
         "major." In the subsequent R4, terms have been more clearly
         defined and all legislation is being considered relevant.

                    data for 1996 has been revised accordingly.

         Explanation of Indicator performance: USAID/Haitiexceededits
         1996 target of four bills and resolutions passed: five bills
         and resolutions were reported in 1996 and ten were actually
         passed, according to the revised definition of the term.
    Trials successfully
         Remedial action taken: This indicator was classified as "not

         accurate" and        validated" because the documentation

         submitted by the OPDAT to support the indicator performance

         could not be located at the time of the audit. OPDAT subse­
         quently resubmitted the information; however, there was a

         discrepancy of one case (error of        when the data was

                                      3

                                                                   APPENDIX II
                                                                    Page 4 of 12



          resubmitted by OPDAT. No validation of the OPDAT information

          was conducted at the time of the FY 97 R4; however, for

          subsequent     this data will be validated.

          Explanation of Indicator performance: USAID/Haiti exceeded

          its 1996 target of 30 cases; according to OPDAT, 34 jury

          trials were held.

     Clients represented through civil society advocacy
          Remedial action taken: This indicator was classified as
          Validated" because AID had not documented our validation of

          the Contractor's monitoring system.     However, staff report

          that there were several visits to the Contractor offices to

          review the monitoring system and to discuss the validity of

          the data. Nevertheless, there was no documentation on this

          validation effort to prove to the auditors that it took place.

          It is important to note that this indicator will be dropped in

          the next R4 when              new strategy comes into effect.

          Explanation of Indicator performance: USAID/Haiti exceeded

          expected performance toward this indicator, with 7772 clients

          receiving legal assistance during CY 1996 compared with the

          7205 projected.

     Legislative support staff trained to perform their duties

          Remedial action taken:     This indicator was classified
          Validated" because contractor-provided data on training

          activities had not been subjected to a formal, independent

-         assessment by          although       project management had

          attended training events. For the future, this indicator has

          been dropped since it reports activity- rather than
          level information.

          Explanation of Indicator performance: In CY1996, USAID/Haiti
          fell short of expected progress toward this indicator by 50
          percent (training was 15 percent complete rather than the
          percent projected).
     Bills introduced by Parliament

          Remedial action taken: This indicator was classified as
--        accurate and validated" because only bills and resolutions

          introduced and passed were counted and documented in

          USAID/Haiti files.    In the subsequent R4, a more precise

          definition is provided.      96 data for this indicator, due

          to an editing error, was not revised to reflect the four bills

          introduced rather than the zero reported.)

          Explanation of Indicator performance: Although the FY 96 R4
          reported that no "major pieces of legislation" had been
                                       4

                                                              APPENDIX II
                                                               Page 5 of 12



          by Parliament, in fact, four bills were introduced,

     exceeding the projected target of one by three.

Enabling legislation fot local government passed and implemented
     Remedial action taken: This indicator was classified "not

     objectively       �

                          ble"    because:          it   was   not
     unidimensional, measuring both        and "implemented"; and
     (b) it was not operationally precise since the term
     "implemented" was not defined. In the subsequent R4, the term
     implemented was defined. This indicator will be dropped in
     future     and replaced by a new indicator under          new

     strategy.

     Explanation of Indicator performance:    The 1996 target for

     this indicator was met and two laws were passed: the Law on

     the Communal Section and the Law for the Development and

     Management Fund. The Law on the Communal Section was also

     implemented in 1996, evidenced by the fact that elections for

     Communal Section Assemblies were held in April 1997.

     of local government units having completed training modules

     Remedial action taken: This indicator was classified as both

     "not supported" and "not validated." It was not supported

     because-available documentation shows that the          (IOM)

     worked in 24 communes, rather than the 22 communes reported.

     Moreover, the grantee had carried out work relevant to this

     indicator in many communal sections (also local government

     units) which was not reported on toward this indicator.

     Additionally, it was "not validated" since we could not locate

     any memos to the file that validated             statistical

     database, although project staff do recall several visits to

     IOM offices to their offices to assess the data collection

     methodology. This indicator will be dropped for subsequent

          since it is an activity rather than Intermediate Result

      (IR)   level indicator.

     Explanation of Indicator performance:    FY 1996 performance

     toward this indicator fell short. The target for the number

     of local government units to have completed training was 35;

     however, only 22 communes were reported to have completed

     training in FY 1996. This target would have been exceeded if

     USAID/Haiti broadly defined local government units to include

     government units beyond communes.

Municipal budget made public and discussed with the            by

local officials in targeted
     Remedial action taken: This indicator was classified as "not
     objectively verifiable" because it is multidimensional and the
     terms in the indicator were not adequately defined. In the FY
                                 5

                                                                   APPENDIX II
                                                                    Page 6 of 12



          98 R4, the indicator was further described, terms defined, and
          new targets developed accordingly.
          Explanation of Indicator performance: In 1996, performance

          fell short of targets; municipal budgets were neither made

          public nor discussed in any communes compared with the 20

          percent projected. This is partially explained by the five

          month funding hiatus that required         to close down local

          government project activities and therefore was unavailable to

          support vetting of budgets publically.

     Measles             rate among children of        months:

     -    Remedial action taken: This indicator was classified as "not

          supported and validated" because the Mission had no

          documentation on file to support how the 1996 results were

          compiled. The Health, Population and Nutrition Office (PHN)

          corrected this situation for the      R4, by commissioning a

          population-based survey of grantee-served areas to determine

          the progress against FY 97 targets.

          Explanation of indicator of performance: Attainment of

          immunization rate targets for FY 1996 and 1997 continue to be

          verified and documented by evidence retained in Mission files.

     Women using ORT:

          Remedial action taken: This indicator was classified as "not

          supported and validated" because the Mission       documenta­
               on file to support the 1996 results. PHN corrected this

          situation for the FY97 R4, by commissioning a population-based

          survey of grantee-served areas to determine the progress

          against FY 97 targets.

          Explanation of indicator performance: Attainment of the FY96

          and 97 targets for women using ORT continue to be verified and

          documented by evidence retained in Mission files.

     Aids social marketing condoms sold:

     -    Remedial action taken: This indicator was classified as
          accurate" because a rounding error resulted in a 2%
                   x     over-reporting of condom sales. The FY97

--        figure is correct.

          Explanation of indicator
                             *     performance: In spite of this error,

          corrected            indicates that the trend for    96 sales

          were positive and targets for this indicator were exceeded in

          FY 97.

     Vitamin A distribution rate:

                                                                   APPENDIX II
                                                                    Page 7 of 12



          Remedial action taken: This indicator was classified as
          supported" because supporting documentation data could not be

          located in the file.            corrected this situation for

          the FY97 R4, by commissioning a population-based survey of

          grantee-served areas to determine the progress against FY 97

          targets.   The indicator was also defined incorrectly: it

          listed the age cohort as children between l-4 years old, but

          has been corrected to read children 1 and 5 years of age.

          Explanation of indicator performance:          partners fell

          short of meeting the targets for vitamin A distribution for

          both       and                       and its partners will

          evaluate the factors behind this shortfall in performance and

          make the necessary adjustments to program implementation and

          targets.

     Percent of children under 3 years old with acute chronic
     trition in program areas:

     -    Remedial action taken: This indicator was classified as "not
          accurate" because different partners reported on different age
          cohorts and documented results differed for two out of three
          partners.             corrected this situation for the FY 97
          R4 by commissioning a population-based survey of
          served areas to determine the progress against FY 98 targets.
          In addition, the indicator, which specifies children under 3
          years of age, was defined incorrectly and has been corrected
          to read children under 5 so that all partners are reporting on

          the same cohort.

          Explanation of indicator performance: As stated in the data

          tables, the malnutrition figures available for the FY 96 R4

          were expressed on the             and show good performance

          against program objectives in areas benefitting from PL-480

          Title II food aid programs.          97 figures, show our

          performance is meeting program targets        accurately re­
          flecting the nutritional status of populations served by all

          USAID/Haiti health program partners, many of which have not

          yet added a food aid component.

     Hectares of Hillside farmland assisted by
          Remedial action taken: This indicator was classified as (1)

--        not adequately supported with data because there was not

          adequate documentation to support the reported result; and (2)

          not validated because it was determined that the source of

          data was not reliable. The indicator will be dropped in FY

          1999 and replaced by an indicator which better reflects the

          impact of civil society implementing environmental solutions.

          Explanation of Indicator Performance:           has met its

          1996 target and exceeded the 1997 target. The new indicator

                                      7

                                                                    APPENDIX II
                                                                     Page 8 of 12



          will reflect the project's emphasis on increased
               as the number of farmers accessing and maintaining
          improved agricultural and natural resource management tech­
          nologies as opposed to the old indicator which focused on

          hectares of hillside farmland assisted by
             in hillside crop yields of participating farmers:

          Remedial action taken: This indicator was classified as not

          complete because     did not include all data sources necessary

          to accurately measure performance.          Measurement of a

          representative sample of farmers was used. It was considered

          not validated because        mission personnel did not prepare

          field reports or file them in appropriate project files which

          would have validated ground truthing and verification of the

          survey results done by the implementing entities. The Mission

          plans a major assessment of our hillside program in the first
          Quarter of FY       which will provide recommendations on
          performance indicators and address the auditors' concerns..
          In the interim, a new indicator will be used to measure the
          impact of our agricultural program at the farm level, namely,
          percent increase in average real farm income in selected
          areas, but this indicator will probably be replaced in       99

          based on the assessment's recommendations.

          Explanation of Indicator Performance:                 exceeded
          both the 1996 and 1997 targets established for this indicator.
          The indicator shows the average yield increase for all food
          and perennial crops found in the farming system namely
          cassava, corn, beans coffee, yams plantain etc. This reported
          figure is valid for the 37,000 farmers working in CARE project
          areas of which 9,250 are women. Information for the remainder
          of farmers participating in the agriculture program is being
          analyzed now and will be available in next               R-4.
          Because of the large number of crops and agro-climatic zones,
          there is no plan to obtain baseline yield data on each crop on
          a project wide basis. Instead, the indicator will be expressed
          in percentage terms to economize on project resources. This
          reporting technique removes the need for baseline yield data

          across each crop being worked on, instead farmers will be able

          to report on yield each year and a calculation in percentage

          change can be determined.

--   Agroforostry Trees Planted:

          Remedial action taken: This indicator was classified as (1)

          not accurate because information reported was not consistent

          with what was to be measured under the indicator and     not
          validated because it was determined that the         mission

          personnel did not groundtruth the results reported the

          implementing entities. As a complementary indicator to the

          number of trees planted and to better assess agricultural

                                                                   APPENDIX II
                                                                    Page 9 of 12



          interventions which will alleviate degradation on hillsides,

          a new indicator will be designed to measure increases in

          vegetative cover and decreases in soil loss.

          Explanation of Indicator Performance: The shortfall in the

          performance indicator was not due to the methodology of

          indicator definition but to delays in program funding. These
          include: (a) erratic rainfall patterns in early 1997 which
          caused a shortfall of planted trees in Northwest;(b) slow
          start up in tree planting between June and December 1997 due
          to delays in recruiting staff; and (c) the programmatic shift
          from tree planting to a demand-driven income generating and
          conservation focus resulting from the revision of our
          strategic plan, further delayed activities.
     Participatory Farmers using sustainable practices:

          Remedial action taken: This indicator was classified as not

          validated because it was determined that       personnel did

          not prepare field groundtruthing reports from their field

          visits. This indicator has been revised and now shows three

          separate categories, including the new farmers in the

          pertinent fiscal year. In addition, improved field surveys

          will be used. The Mission plans a major assessment of the

          hillside program in the first Quarter of FY 99 which will

          provide recommendations on performance indicators.

          Explanation of Indicator Performance: The targets set for two

          of the three categories of this indicator were exceeded. The

          IR addresses farmers using agricultural production practices

          that protect the environmental resource base. The plan level

          (126,435) has been exceeded by 21% as a result of the high

          demand for trees and other economically viable sustainable

          practices by farmers. Of a total of 152,524 farmers using

          these sustainable practices, 25% are women (38,000).

     Agricultural Income of Participating Farmers in Selected Areas

          Remedial action taken: This indicator was classified as not

                                     The audit defines an objectively

          verifiable indicator as one that has no ambiguity about what

          is being measured.     This indicator will be replaced by:

          Percentage Increase in Average Real Farm Income in Selected

--        Areas. Cost effective options are being considered (e.g., Farm

          household income and expenditure surveys) to tighten the

          effectiveness of this indicator without excessively reducing

          funds available to assist participating farmers. The Mission

          plans a major assessment of our hillside program in the first

          Quarter of    99. This assessment will provide recommendation

          on indicators and measurements which will also address these

          concerns.


                                      9

                                                               APPENDIX II

                                                                Page 10 of 12




     Explanation of Indicator Performance: The targets set for this
     indicator were exceeded in both 1996 and 1997. A total of
     152,524 farmers participate in the PLUS project activities
     Of this number 38,000 are women. The indicator addresses
     primarily those components enhancing soil and water conserva­
     tion. Farmers' retention rate of conservation practices and

     its effect on income make this project a significant success

     in hillside agriculture.

Percent of Induced             Practices still being well managed
     Remedial action taken: This indicator was classified as (1)

     not complete because it did not include all data against what

     was anticipated to be measured and (2) not validated because

     it was determined that the source of data was not reliable.

     This indicator will be dropped in 1999.      USAID/Haiti will

     undertake a major assessment of the hillside program in the

     first Quarter of FY 99 which will provide recommendations on

     performance indicators and address the auditors' concerns.

     Explanation of Indicator Performance: The targets set for this

               were not met in 1996 A new indicator will measure
     the percentage of all soil conservation and tree planting
     efforts still being well managed to track the quality of
     farmers' field practices.
New Jobs Created or Saved:

     Remedial action taken:
                       *     This indicator was classified as not

     supported and                          also found that this

     indicator was not accurately measuring the performance of a

     highly successful activity. This indicator will be deleted in

     1998 and replaced by: Number of Loans to participating

     customers. In 1999, the indicator will be further revised as:

              Increase in Number of Customers of             small

     and micro-entrepreneur programs".

     Explanation of Indicator Performance: The targets set for this

     indicator were exceeded in 1996 and 1997. New jobs created or

     saved refers to the number of employees working in businesses

     that benefited from           loan programs at the time of

     disbursement. Two different employment effects are captured:

     (a) the number of jobs saved in enterprises which benefitted

     from the        supported loan program which might otherwise

     have been lost; and (b) the number of jobs created as a result

     of enterprises participating in the loan program. The

     participating Non-Banking Institutions         usually lend to

     women engaged in small and micro economic activities; our

     analysis shows that these recipients manage to            their

     fragile microenterprises going, but they rarely hire addition­
     al help. Thus the 3,356 credits lent by these        have saved

     an equal amount of jobs. Our partner, the National Bank of

                                 10
                                                                    APPENDIX II

                                                                     Page 11 of 12




          Haiti        however, show a better performance and job

          generation on its 246 loans awarded in the R4 period. Our

          analysis of their records show that on average, 2.07 jobs are

          financed by these loans. Thus, approximately, 3,865 jobs were

          created or saved as a result of the loan program: 3,356 as a

          result of loans from      and 509 as a result of BRH loans.

        and           Groups Participating    Environmental
          Remedial action taken: This indicator was classified as (1)

          not accurate because information reported was not consistent

          with what was to be measured under the indicator and (2) not

 -        validated because it was determined that the source of data

          was not reliable. It was determined that this indicator did

          not measure program effectiveness in terms of actual people

          involved (e.g.        vary in membership size). In 1999 this

          indicator will be replaced by "Population in thousands using

          improved environmental practices in solidwaste disposal, soil

          and water conservation, energy efficiency and
          Explanation
            .
        of Indicator Performance: This indicator is de­
                 to measure the dissemination of improved natural

          resource management practices through community groups. The

          number of farm groups participating in environmental protec­
          tion activities through        funded communitybasedprograms

          total 2,179. In both 1996 and 1997 the program has exceeded

          the targets set.    The 1998 planned level will reflect the
          transition towards larger, consolidated farmer and community
          associations i.e. fewer in number but stronger community
          groups and      in terms of membership number.

     Number of teachers trained:

          Remedial action taken: This indicator was classified as not

          supported or validated since a) the 1996 result differed from

          later documented results; and b)         teachers were not

          differentiated from directors.   Indicator has been supported

          in the files, and the training of directors is reported

          separately from that of teachers in the subsequent R4.

          Explanation of Indicator performance:
                                      ,         Implementation problems

          slowed progress on this         in 996, so indicator results

          fell short. The PACD was extended until 1998 and R4 1998

--        results should meet indicator totals anticipated for this

          project. Documentation has been reviewed with grantee,

          particularly steps for submission and validation of data.

     Students participating in pilot distance education project:

          Remedial action taken: This indicator was classified as not

          validated because the 1996 reported result was based on a

          draft report rather than the final document in the files.

                                      11

                                                       APPENDIX II

                                                        Page 12 of 12




Indicator has now been supported in the files and the number

corrected in the subsequent R4.

Explanation of Indicator performance: This activity was

satisfactory and        results greater than anticipated.





                          12

                                                                                                                           APPENDIX III
                                                                                                                              Page 1 of 3



                             Analysis of                  1996 Indicators and Results
                                    (as reflected in its R4 prepared in


                                            Objectively     Supported?        Accurate?      Complete?        Validated?        Explanation of
                Indicator                   Verifiable?                                                                        problem, if any,
                                                                                                                                except for not
                                                                                                                                   validated

   (1) Bills introduced by Parliament           Yes              Yes              No                              No          Only counted bills
                                                                                                                               and resolutions
                                                                                                                               introduced and
                                                                                                                                   passed.

  (2) Scheduled elections held as               Yes              Yes             Yes             Yes              Yes
  mandated by law

  (3) Measles immunization rate                 Yes              No                                               No            Documentation
  among children of 12-23 months                                                                                                 not retained.

  (4) New jobs created or saved                 Yes              No                                               No            The number of
                                                                                                                                employees per
                                                                                                                                 loan was not
                                                                                                                                 documented.

  (5) Women using ORT                           Yes              No                                               No            Documentation
                                                                                                                                 not retained.

  (6) Hectares of hillside farmland             Yes              No                                               No            Multiplication
  assisted by                                                                                                                  factor of 1.1 not
                                                                                                                                  supported.

  (7) Legislative support staff                 Yes              Yes             Yes             Yes              No
  trained to perform their duties

  (8) AIDS social marketing                     Yes              Yes              No                              Yes             Reported 4.7
  condoms sold                                                                                                                      million.
                                                                                                                                  Documented
                                                                                                                                 result was 4.6
                                                                                                                                    million.




            To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not supported and not accurate),
we classified indicator results as having only one problem according to the following hierarchy: not objectively verifiable, not supported, not
accurate, and not complete. We did, however, classify results as not validated (if applicable) in addition to another problem because we believe
that the requirement for operating units to assess the quality of data sources was a distinct function and potentially related to each of the type
of problems included in the hierarchy. We did not assess whether a result was validated if the result was not objectively verifiable.
                                                                                                     APPENDIX III
                                                                                                        Page 2 of 3

                                     Objectively   Supported?   Accurate?   Complete?   Validated?     Explanation of
             Indicator               Verifiable?                                                       problem, if any,
                                                                                                        except for not
                                                                                                          validated

(10) Municipal budget made               No                                                             Indicator is not
public and discussed with the                                                                           unidimensional,
community local officials in                                                                             key terms not
targeted communes                                                                                      defined, universe
                                                                                                          of targeted
                                                                                                       communities not
                                                                                                           identified.
(11) Increase in hillside crop          Yes           Yes       Unknown        No          No          Survey data only
yields                                                                                                 from 1 of 4 data
                                                                                                           sources.

(12) Number of teachers trained         Yes            No                                  No           Documentation
                                                                                                            does not
                                                                                                       correspond to the
                                                                                                        reported result.

(13) Vitamin A distribution rate        Yes            No                                  No           Documentation
                                                                                                         not retained.

(14)         and community groups       Yes           Yes          No                      No          2,055        and
participating in environmental                                                                         groups reported.
protection                                                                                                Documented
                                                                                                       result was 3,090.

(15) Agroforestry trees planted         Yes           Yes          No                      No          Reported result
                                                                                                       was 6.0 million
                                                                                                           trees.
                                                                                                        Documented
                                                                                                       result was 6.6
                                                                                                          million.

(16) Clients represented through        Yes           Yes          Yes         Yes         No
Civil Society advocacy

(17) Farmers using sustainable          Yes           Yes          Yes         Yes         No
practices
(18) Bills and resolutions passed        Yes          Yes          No                      No           Reported result
by parliament                                                                                              was 5.
                                                                                                         Documented
                                                                                                        result was

(19) Number of local government          Yes           No                                  No           Documentation
units having completed training                                                                          not retained.
modules

(20) Trials successfully completed       Yes           Yes         No                      No           Reported result
                                                                                                           was 33.
                                                                                                         Documented
                                                                                                        result was 24.
                                                                                                      APPENDIX III
                                                                                                         Page 3 of 3

                                      Objectively   Supported?   Accurate?   Complete?   Validated?     Explanation of
             Indicator                Verifiable?                                                       problem, if any,
                                                                                                         except for not
                                                                                                           validated

(21) Percent of children under 3         Yes           Yes          No                      No         Results were from
years old with acute and chronic                                                                       3 data sources--all
malnutrition in program areas                                                                          reporting different
                                                                                                          age groups.
                                                                                                            Reported
                                                                                                           percentages
                                                                                                          differed from
                                                                                                       documentation for
                                                                                                           2 of 3 data
                                                                                                        sources as well.

(22) Agricultural income                  No                                                              Proxy used.
                                                                                                        Thus, indicator is
                                                                                                         not objectively
                                                                                                         verifiable based
                                                                                                           on the data
                                                                                                            available.

(23) Percent of induced                   Yes          Yes       Unknown        No          No          Data only from 1
agricultural practices still being                                                                     of 4 data sources.
well managed                                                                                             Data measures
                                                                                                           only 4 of 12
                                                                                                          interventions.
(24) Revised or newly                    Yes           Yes          Yes         Yes         Yes
implemented regulations affecting
the environment

(25) Enabling legislation for local       No                                                             Indicator is not
government passed and                                                                                   unidimensional.
implemented                                                                                              Implementation
                                                                                                           not defined.

Number of No Answers                       3            8                        2           19
                                                                                  APPENDIX IV
                                                                                     Page 1 of 3


                    Federal Laws and Regulations, and      Guidance

                       Relevant to Measuring Program Performance


There are numerous federal laws and regulations requiring     (and other federal agencies)
to develop and implement internal management controls to measure and report on program
performance. Discussed below are examples of those requirements as well as related
policies and procedures.

Laws and ‘Regulations

The Chief Financial Officers Act of 1990 requires management internal controls which provide
for (1) complete, reliable, consistent, and timely information which is prepared on a uniform basis
and which is responsive to the financial information needs of             management; and (2) the
systematic imeasurement of performance.

Standards for Internal Controls in the Federal Government, issued by the U.S. General
Accounting Office in 1983, requires systems of internal controls that ensure that all transactions
and other significant events are to be clearly documented, and that the documentation be readily
available for examination.

OMB Circular No. A-123 (dated June 21,            which is the executive branch’s implementing
policy for compliance with the Federal Managers’ Financial Integrity Act of 1982, requires
agencies to have management internal controls to ensure that (1) programs achieve their intended
results; and (2) reliable and timely information is obtained, maintained, reported and used for
decision making.

OMB Bulletin        (dated January 8, 1993) requires agencies to have internal control systems
to provide reasonable assurance that support for reported performance results are properly
recorded and accounted for to permit preparation of reliable and complete performance
information.

The Foreign Assistance Act (Section       as amended in 1968, requires           to develop and
implement a management system that provides for comparing actual results of programs and
projects with those anticipated when they were undertaken. The system should provide
information to        and to Congress that relates         resources, expenditures, and budget
projections to program objectives and results in order to assist in the evaluation of program
performance.

        Policies and Procedures

The most recent         system, known as the Automated Directives System for Managing for
Results (ADS 200 Series), for measuring and reporting on program performance was initiated in
                                                                                          APPENDIX IV
                                                                                             Page 2 of 3

        October 1995. This new system requires (Section 203.5.1 a) that operating          units establish
        performance monitoring systems to regularly collect and analyze data which will    enable them to
        track performance and objectively report on the progress in achieving strategic    objectives and
        intermediate results. The system also requires (Sections 203.5.5,                   E203.5.5 and
                  operating units to:

               establish objective performance indicators (with related baseline data and targets) to
               measure progress in achieving program objectives;

               critically assess the performance data at regular intervals to ensure that reported
               performance data are of reasonable quality and accurately reflect performance; and

           �   prepare an annual Results Review and Resource Request (R4) report which must include
               performance information on progress in achieving its program objectives for the
               immediate past fiscal year.

        TIPS No. 6 “Selecting Performance Indicators,” which is supplemental guidance to the ADS,
        defines objective as:

           An objective indicator has no ambiguity about what is being measured. That is, there is
           general agreement over interpretation of the results. It is both unidimensional and
           operationally precise. To be unidimensional means that it measures only one phenomenon
           at a time. . . . Operational precision means no ambiguity over what kind of data would
           be collected for an indicator. For example, while number of successful export        is
           ambiguous, something like number of export firms experiencing an annual increase in
           revenues of at least 5 percent is operationally precise.

        TIPS No. 7 “Preparing a Performance Monitoring Plan,” which is also supplemental guidance to
        the ADS, stipulates that each performance indicator needs a detailed definition. The definition
        should be detailed enough to ensure that different people at different times, given the task of
-       collecting data for a given indicator, would collect identical types of data. The definition should
        be precise about all technical elements of the indicator statement. For example, the TIPS states:

           As an illustration, consider the indicator number of small enterprises receiving loans from
           the private banking system. How are small enterprises defined-all enterprises with 20
           or fewer employees, or 50 or          What types of institutions are considered part of the
           private ‘banking sector-credit unions, government-private sector joint-venture financial
           institutions?

        ADS Section E203.5.5 also requires operating units to (1) assess data quality as part of the
        process of establishing performance indicators and choosing data collection sources and methods;
        (2) collect results data for each performance indicator on a regular basis; and (3) reassess data
        quality as     necessary but at intervals of no greater than three years. These policies and

    -
                                                                                            APPENDIX IV
                                                                                               Page 3 of 3
         procedures also state that if data for a performance indicator prove to be unavailable or too costly
         to collect, the indicator may need to be changed.

         In addition, ADS section           states that       will conduct a review of performance on
         an annual basis which will include analyzing operating units’ performance and “shall focus on
         the immediate past fiscal year,” but may also review performance for prior years.

                   guidance issued in January 1997 for preparing the             stated that the goal of the
         guidance was to generate          which ensure that                           management has the
         information it needs to make results-based resource allocations among operating units and report
         on            achievements. The guidance also stated that the most effective          are those that
    -
         (1) assess performance over the life of objectives, with an emphasis on the past year, using
         established indicators, baseline data and targets; and (2) state explicitly whether and how much
         progress or results surpassed, met or fell short of expectations. The guidance stated that the
         results should cover actual performance through fiscal year 1996.

    --




-




    --
